HHS/OIG-Audit--"Review of Recharge Center Controls at the University
of California, Berkeley, (A-09-95-04001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Recharge Center Controls at the University of California,
Berkeley," (A-09-95-04001)
November 9, 1995
Complete Text of Report is available in PDF format
(172 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discloses that although the University of California Berkeley's
(UCB) policies and procedures were generally consistent with OMB Circular A-21,
UCB did not adequately control and monitor recharge center operations to ensure
compliance. Specifically, our review disclosed that: (1) three recharge centers
accumulated large surplus fund balances, resulting in $400,120 of excess charges
to federally sponsored projects, (2) one recharge center inappropriately transferred
surplus funds out of its operating account of unrelated purposes; (3) two recharge
centers charged the cost of capital equipment purchases to current operating
funds; (4) one recharge center used unapproved billing rates; and (5) most recharge
centers were not credited for interest income earned on their cash balances.